you are granting us a security interest in all your funds in your
present and future Landmark Credit Union deposit accounts,
except IRAs and any other accounts exempted by state and
federal law, to the full amount of your credit card indebtedness
with us. Should you default under the terms of this Agreement,
we may, at our sole option, subject to any notice and right to
cure required by Wis. Stat. Sec. 425.105, at any time thereafter,
exercise our right of set-off and apply any portion of, or
the entire amount of, such funds toward payment of the
outstanding indebtedness, and/or, we may exercise our right
to refuse to allow withdrawal from such accounts to the full
extent of the delinquent amount, all of which is subject to
the restrictions contained in Section. 1026.13 (d) (1) of federal
Reg. Z. If you give, have given or will give us any other security
interests for all your debts, your Account will also be secured
by the property described in those security agreements
(except your home and/or dwelling, home furnishings,
appliances and clothing), including, if your balance exceeds
$1,000 and except as otherwise expressly excluded herein, any
real property.
12. Credits: If plan members who honor your Card give you
credit for returns or adjustments, they will do so by sending us
a credit slip that we will post to your Account. We will apply
those credits first to offset your current purchases, and then
to your previous balance. If your credits and payments exceed
what you owe us, we will hold and apply this credit balance
against future purchases and cash advances, or refund it on
your written request if it is $1.00 or more. We will make a good
faith attempt to return to you any credit balance that remains
in your Account for more than six months.
13. Plan member Disputes: We are not responsible for refusal
of any plan member or financial institution to honor your Card
or Convenience Check. You must resolve directly with the
plan member any disputes regarding goods or services you
purchase with the Card, unless: (a) your purchase was made
in response to an advertisement we sent or participated in
sending you, or (b) your purchase cost more than $50.00 and
was made from a plan member in your state or within 100
miles of your home.
14. Foreign Transaction Fee: A transaction that takes place
in a foreign country will be charged 1% of the US dollar
amount whether the transaction was made in US dollars
or was converted from a foreign currency. For transactions
being converted from a foreign currency, Visa® International
will convert foreign currency to US dollars using either the
government-mandated exchange rate or the wholesale
exchange rate in effect one day before the date of the
conversion, as applicable. The exchange rate is increased by
one percent (1%) if the conversion is made in connection with
a charge to an account and decreased by one percent (1%)
if the conversion is made in connection with a credit to the
Account. The date of conversion by Visa® may differ from the
purchase date and the posting date identified in the monthly
statement for your Account. You agree to pay charges and

accept credit for the converted transaction amounts in
accordance with the terms of this paragraph.

unpaid. (e) There will be a cash advance fee the greater of
$5.00 or 3% of the amount of the cash advance.

15. Unauthorized Use: You authorize us to pay from
your Account all items reflecting credit purchases or cash
advances made with the Card in spite of the absence of
your signature on the draft or the lack of presentation of
the Card. You may be liable for unauthorized use of your
Visa® Platinum Card. However, YOU WILL NOT BE LIABLE
FOR UNAUTHORIZED USE THAT OCCURS AFTER YOU
NOTIFY US OF THE LOSS, THEFT, DISPUTE OR POSSIBLE
UNAUTHORIZED USE OF YOUR CARD (Contact in writing at
Cardholder Services, P.O. Box 183258, Columbus, OH 432183258; Visa® Platinum Card for Customer Service and to list
as Lost or Stolen please call 1-866-952-8199; electronically
at dispute.services@fiserv.com). In addition, unless you
have been grossly negligent or have engaged in fraud, you
will not be liable for any unauthorized transactions using
your lost or stolen Visa card. This additional limit on liability
does not apply to ATM transactions outside of the U.S., to
ATM transactions not sent over Visa [or Plus] networks, or
to transactions using your personal identification number
which are not processed by Visa, at which time your liability
will not exceed $50.

18. Termination: If you are a resident of Wisconsin, our
receipt of a written notice from your spouse terminating his
or her liability for the Account will constitute an event of
default if such termination materially impairs the condition,
value or protection of our right to any collateral securing
your obligations under this Agreement or your ability to pay
the obligations due under this Agreement. You will remain
responsible for all amounts charged to your Account both
before and after receipt of such notice. Your privilege of
using the Card and the Account shall expire on the date
shown on the Card. You may terminate your Account
relationship with us at any time by surrendering to us all
your Cards and unused Convenience Checks, but you will
remain liable to us for full payment of any balance on your
Account. We may revoke your Card at any time without prior
notification and without affecting your obligation to pay the
Account balance.

16. Effect of Regulations: This agreement is the contract
that applies to all transactions on your Account even though
the sales, cash advances, or credit slips you sign may contain
different terms. We may amend this Agreement from time
to time. If required by Section 422.415, Wis. Stats., we will
provide written notice of an amendment 90 days prior to
the date the amendment is effective. Your use of the Card or
Convenience Check thereafter will indicate your agreement
to the amendments. To the extent the law permits, and
we indicate in our notice, amendments will apply to your
existing Account balance as well as to future transactions.
No delay or omission in exercising any rights granted to us
hereunder shall impair such rights or be construed to be a
waiver thereof. No waiver whatsoever shall be valid unless
signed in writing by us and then only to the extent set forth
therein.
17. Fees and Charges: (a) As permitted by Wisconsin
Statutes, a $25.00 late payment fee will be assessed against
your Account if we do not receive your minimum payment
on or before the due date set forth on your periodic
statement. (b) You will be charged a lost Card replacement
fee of $6.00 for any lost Card which we must replace. To
limit your personal liability, contact us immediately upon
discovery of loss. (c) You will be provided one periodic
statement per billing period and will be charged for each
duplicate billing statement, draft, or machine receipt you
request. Check our website, landmarkcu.com, or a fee
schedule in any branch for the current fee. These fees will
not be charged if the request is related to a billing error
under the Fair Credit Billing Act. (d) There will be a $30.00
charge for each check presented in payment that is returned

19. Change of Address: We will send all Account statements
and any other notices concerning this Account to your address
as shown in our records. If you change your address, you must
notify us of your new address within a reasonable time.
20. Applicable State Laws: The validity, construction, and
enforcement of this Agreement and all matters arising out
of the issuance and use of the Card shall be governed by the
laws of Wisconsin.
21. Joint Account: You agree that all parties to your
Account are authorized on your behalf to request Credit
Line increases, to agree to amendments or modifications
to the Account, to enter into settlements or agreements
with us regarding the Account, to request additional Cards,
or to authorize others to transact business on the Account.
You agree to be jointly and severally liable for all charges to
the Account made or authorized by any other party to the
Account, whether or not such charges caused the Account
balance to exceed the Credit Limit.
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Cardholder Services
PO Box 183258
Columbus OH 43218-3258
Or, contact electronically at dispute.services@fiserv.com.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on

your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your
statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing or
electronically. You may call us, but if you do we are not
required to investigate any potential errors and you may have
to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill
is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report
you as delinquent on that amount.
• The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.
• While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

Your Rights If You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good
faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.

Rewards Credit Card
Agreement and Disclosure

LANDMARK CREDIT UNION

5445 S. Westridge Drive, P.O. Box 510870
New Berlin, WI 53151-0870
(262) 796-4500, x6609
If your card is lost or stolen, notify us immediately:
In the U.S. call (866) 952-8199
Outside the U.S. call (301) 945-9967

If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at:
Cardholder Services
PO Box 183258
Columbus OH 43218-3258
Or, contact electronically at dispute.services@fiserv.com.
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as
delinquent.

After we finish our investigation, one of two things will
happen:
1. If we made a mistake: You will not have to pay the
amount in question or any interest or other fees related to
that amount.
2. If we do not believe there was a mistake: You will have
to pay the amount in question, along with applicable
interest and fees. We will send you a statement of the
amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that
you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those
organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay
the first $50 of the amount you question even if your bill is correct.

®
6.74 (Rewards 345)
3/20

1.5M
3645047

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases and Balance Transfers

0% APR for 6 months from the account opening date. After that your APR will be
9.99%
This APR will vary with the market based upon the Prime Rate.

APR for Cash Advances

12.99%
This APR will vary with the market based upon the Prime Rate.

Penalty APR and
When it Applies

29.99%

Paying Interest

Your due date is at least 27 days after the close of each billing cycle. We will not charge you any interest on
purchases if you pay your entire balance by the due date each month. We will begin charging interest on
cash advances (and balance transfers?) on the transaction date.

This APR may be applied to your account if a minimum payment or portion thereof is past due by more
than 60 days.
How long will the Penalty APR apply? If your APRs are increased for the reason set forth here, the
Penalty APR will apply until you make three consecutive minimum payments on time.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at www.consumerfinance.gov/learnmore

Fees
Annual Fees

None

Transaction Fees
• Balance Transfer

None

• Cash Advance

Greater of $5.00 or 3% of the cash advance amount

• Foreign Transaction

1% of the amount of the transaction

Penalty Fees
• Late Payment

Up to $25.00

• Over the Credit Limit

None

• Returned Payment

Up to $30.00

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new purchases). See Section 7 of
the Account Agreement for more details.
Loss of Introductory APR: We may end your introductory APR and apply the Penalty APR if a minimum payment or portion thereof is
past due by more than 60 days.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided at the end of the
Agreement.

This card is issued by Landmark Credit Union pursuant to a license from Visa® USA Inc.
Balance transfers from a Landmark credit card may not be eligible. Maximum cash advance is 50% of credit limit.

Credit Card Rules, Regulations, and Disclosures
Keep This Notice for Future Use. This Agreement and
Disclosure (“Agreement”) is effective as of March 2020. In
this Agreement, the words “you” and “your” mean each and
all of those who applied for or received, or who signed and
used, the Card. The term “Card” means your Rewards Visa®
Platinum Card issued by Landmark Credit Union, pursuant to
a license from Visa® USA Inc., and any duplicates or renewals
we issue. “We,” “us” and “our” means Landmark Credit Union.
“Account” means your Landmark Credit Union Rewards Visa®
Platinum Card account.
1. Responsibility: If you apply for and receive a Card from
us, you agree to this Agreement. You also agree to repay
all debts and any Finance Charges or any other fees or
charges arising from use of the Cards and the Card account.
For example, you are responsible for any charges made by
yourself and anyone else to whom you give the Card. This
responsibility continues until you recover and return the
Card to us. Except to the extent permitted by law, you cannot
disclaim your responsibility for such charges by notifying us,
and your responsibility continues even though an agreement,
divorce decree or other court judgment to which we are
not a party, may direct you or one of the other persons
held responsible under the Account to pay the Account.
Any person using the Card shall be jointly responsible with
you for the charges made, and if that person signs the card,
and receives a copy of this Agreement, he or she is also
responsible for all charges on the Account, including yours.
2. Credit Line: We will establish a maximum credit limit for
your Account (“Credit Line”) and advise you of its amount.
You agree not to let the Account balance exceed the Credit
Line, but you remain responsible for payment if it does.
Any Account balance in excess of the Credit Line is payable
immediately. We reserve the right to reduce your Credit Line,
from time to time, or to revoke your Card, without affecting
your obligation to pay all Account balances. Maximum cash
advance is 50% of your Credit Line. The Cards remain our
property, and if we request, you must recover and surrender
to us all Cards we issued on your Account.
3. Use of the Card: To make a purchase or cash advance,
present the Card to an authorized plan member or financial
institution and sign the sales or cash advance draft that
will be imprinted with your Card. You may also obtain a
cash advance with the Card at certain automated terminals.
Regular transactions are counted against your Credit Line.
You will receive a copy of the draft (or machine receipt at a
terminal at which there is no attendant), which you should
retain to verify your monthly statement. We reserve the right
to make a reasonable charge for photostatic or duplicate
copies of drafts or machine receipts you may request. Your
Card may not be used for any transaction that is illegal under
Federal, State or local law. Also, your Card may not be used
for any Gambling including Internet Gambling.

4. Convenience Checks: We may, from time to time, supply
you with personalized Convenience Checks that are subject
to the following conditions. Only the person whose name is
printed on a Convenience Check may sign it. All Convenience
Checks must be written in U.S. dollars. We will not certify a
Convenience Check. We are entitled to return a Convenience
Check unpaid if there is not enough available Credit Line
on your Account to pay for it, if you are in default under
this Agreement, if your Card or Convenience Check has
been reported lost or stolen, if your Convenience Check is
postdated, if your right to use Convenience Checks has been
cancelled or suspended, or if your Account has been closed.
In addition, we may refuse to honor a Convenience Check
whenever we would be entitled to dishonor an ordinary
check. If we refuse, under the terms of these Regulations, to
honor a Convenience Check issued by you, we may charge
your Account a NSF fee. Check our website, landmarkcu.com,
or a fee schedule in any branch for current fee. A
Convenience Check cannot be used to make a payment on
any Landmark Credit Union Visa® Account.
Any Convenience Check that we pay will be posted to your
Account as a cash advance and will be subject to all the terms
in this Agreement that apply to cash advances. We shall have
no liability for any Convenience Check that we return because
it was written for an amount in excess of your available Credit
Line. Convenience Checks that you use and we pay will not
be returned to you but will be identified on your monthly
billing statement. The Wisconsin Uniform Commercial Code,
as well as applicable Landmark Credit Union policies and
fees, will apply to Convenience Checks as if they were checks
drawn on a checking Account.
5. Introductory Annual Percentage Rate and Monthly
Periodic Rate: Your introductory rate is 0%. This rate applies
for the first six billing periods (the “Introductory Rate Period”),
unless terminated in the event of delinquency. After the
Introductory Rate Period ends, your Monthly Periodic Rate
and corresponding Annual Percentage Rate may vary as
described in Section 8.
6. Rewards Program: Earn 1 point for every dollar
in purchases, which can be redeemed for gift cards,
merchandise and travel. You may check available points and
redeem points within your Landmark Credit Union Online or
Mobile Banking account.
Restrictions on Rewards. Rewards points are based on
qualifying net purchases. Rewards are not available: 1) on cash
advances and Convenience Checks, 2) on any purchases that
exceed your available credit limit, 3) on any business purpose
purchases, 4) upon your Account being closed for any reason,
5) past due or charged off accounts, 6) fraudulent charges, 7)
credit of any kind including returns, 8) balance transfers. We
reserve the right to discontinue providing you with Rewards
if you use your Card for other than consumer or personal

purposes. We reserve the right to cancel this Rewards program
at any time.
7. Finance Charge: Starting the first billing period after
expiration of the Introductory Rate, your Account will be
subject to a Finance Charge during any billing period during
which you (a) received, or had outstanding, a cash advance;
or (b) failed to pay in full the previous balance shown on
the statement during the first 27 days of the statement (the
“Grace Period”).
Your Landmark Rewards Visa® Platinum card Finance Charge is
calculated by applying the Monthly Periodic Rate, determined
as set forth in Section 8 of this Agreement, to the “average
daily balance” of your Account. To get the “average daily
balance,” we take the beginning balance of the Account
each day, reduced by any payment you make, credits we
apply, and any late payment fee due, and increased by any
cash advances and, if the previous balance was not paid in
full during the Grace Period, all new credit purchases posted
through that date. This gives us the daily balance. Then we
add all the daily balances for the billing period together and
divide the total by the number of days in the billing period.
This gives us the “average daily balance.” All accounts are
subject to a Minimum Finance Charge of $1.00.
You can avoid incurring a Finance Charge on purchases
by paying the New Balance in full within the Grace Period.
However, a Finance Charge will be imposed on cash advances
from the date made (on Convenience Checks from the date
cleared), and will continue to accrue on any cash advances
or Convenience Checks until your payment is received. If
a minimum payment or any portion thereof is past due by
more than 60 days, your Monthly Periodic Rate will increase
to 2.499% (Annual Percentage Rate of 29.99%). This Penalty
Rate will be effective following any notice and waiting period
required by law. Your Monthly Periodic Rate of 2.499%
(Annual Percentage Rate of 29.99%) will remain on your
Account until your Account has been paid on time and with
no other event of default for three (3) consecutive billing
periods after application of the Penalty Rate, at which point
it will return to the Variable Rate determined as set forth in
Section 8 of this Agreement.
8. Variable Rate: Your Monthly Periodic Rate and
corresponding Annual Percentage Rate may vary. Effective
March 1, 2020, your Annual Percentage Rate is determined by
adding a margin of 6.74% to the Prime Rate published in the
Wall Street Journal. Effective Prime Rate for your interest rate
calculation will be identified on the 10th day of each month
or the last date of publishing, if not published on the 10th. If
Prime Rate has changed, your interest rate will also change
effective the 1st day of the following calendar month and
the new rate will apply to any outstanding balance as well as
future balance increases. Any promotional or penalty APR that
applies to your card will not be affected by this change.

9. Monthly Payment: Unless there has been no activity on
your Account since your last statement and your Account
shows a zero balance, we will mail you a statement for every
billing period, showing your previous balance, the current
transactions on your Account, the remaining credit available
under your Credit Line, the applicable Monthly Periodic
Rate, the fees and Finance Charge, the new balance, and
the minimum payment due. Every billing period you must
pay at least the minimum payment by its due date. You may
pay more than the minimum or pay the new balance in full,
which may reduce or avoid the Finance Charge. The minimum
payment will be 2.0% of your new balance, or $25.00,
whichever is greater, or your full new balance if it is less than
$25.00. We will apply your payment first to the finance charge
and fees then to your unpaid balance in the order transactions
were posted to your Account. If a different Annual Percentage
Rate applies to different balances, any payment above the
minimum payment will be applied to the balance bearing
the highest Annual Percentage Rate. A minimum payment is
required for every billing period and any additional amount
paid will reduce your balance but will not prepay any future
minimum payment.
10. Default: You will be in default if (i) your violation of
any requirement of this Agreement materially impairs the
condition, value or protection of our right to any collateral
securing your obligations under this Agreement or your ability
to pay the obligations due under this Agreement; or (ii) you fail
to make the minimum payment on or before the due date two
times during any 12-month period. You will also be in default if
your ability to repay us or the value or protection of our right in
any collateral securing your obligations is materially impaired
in the event you or your spouse die, change marital status,
change marital domicile, or become the subject of bankruptcy
or insolvency proceedings. If you are in default, we have a right
to demand immediate payment of the full balance, exercise
our right to offset and/or commence legal action to recover
collateral or reduce the claim to a judgment after complying
with all notice requirements as mandated by law.
11. Security Interest: Each purchase and cash advance
through your Account constitutes a transaction pursuant to an
open-end credit plan in the State of Wisconsin. You agree that
the Wisconsin Consumer Act applies to all these transactions
even though you may use them for business purposes or you
are a person not otherwise governed by the Act. To secure
each transaction, you grant us a purchase-money security
interest under the Uniform Commercial Code in any goods you
purchase with it. If you default, we will have the right to recover
any of these goods, which have not been paid for in full.
For purposes of determining the amount of the unpaid balance
secured by our security interest, your payments will be deemed
to have been applied first to payment of finance charges in
order of their entry to the account and then to payment of the
respective amounts financed in the order in which the entries
were made and, for transactions made on the same day, the
smallest shall be deemed the first paid. By using your card

